BMO Harris
Credit Cards

BMO Harris
Consumer Credit Cards

Guide to Benefits

BMO Harris Bank Platinum Mastercard®
BMO Harris Bank Platinum Rewards Mastercard®
BMO Harris Bank Cash Back Mastercard®
Important information. Please read and save.

Guide to Benefits

2

3

BMO Harris Consumer Credit Cards

Important information. Please read and save.
This Guide to Benefits contains detailed information about
insurance and retail protection services you can access as a
preferred cardholder. This Guide supersedes any guide or
program description you may have received earlier.
To file a claim or for more information on any of these services,
call the Mastercard Assistance Center at 1-800-Mastercard:
1-800-627-8372, or en Español: 1-800-633-4466.
“Card” refers to Mastercard® card and “Cardholder”
refers to a Mastercard® cardholder.
Key Terms
Throughout this document, You and Your refer to the cardholder or
authorized user of the covered card. We, Us, and Our refer to New
Hampshire Insurance Company, an AIG company. Other words and
phrases that appear in bold have special meaning.
Administrator means Sedgwick Claims Management Services, Inc. You may
contact the administrator if you have questions regarding this coverage or
would like to make a claim. The administrator can be reached by phone at
1-800-Mastercard.
Assistance Center means the designated assistance teams trained to
provide customer services and coordination of qualified local providers to
travelers in real time.
Authorized driver(s) means a driver with a valid driver’s license issued
from their state of residence and indicated on the rental agreement.
Authorized User means an individual who is authorized to make purchases
on the covered card by the cardholder and is recorded by the participating
organization on its records as being an authorized user.
Cardholder means the person who has been issued an account by the
participating organization for the covered card.
Covered card means the active and valid Mastercard-branded payment card.
Evidence of Coverage (EOC) means the summary of benefits set forth
below which describe the terms, conditions, limitations and exclusions of the
coverage provided to you at no additional charge under the group policy.
Representations or promises made by anyone that are not contained in the
group policy are not part of your coverage. In the event the EOC, Key Terms,
or Legal Disclosures of this Guide to Benefits conflict with the provisions of the
group policy, the terms of the group policy govern your coverage.
Family Member means the spouse or domestic partner of you. It includes
unmarried children of you under nineteen (19) years of age. It also
includes unmarried children under twenty-six (26) years of age if a fulltime student at an accredited college or university.
Injury means bodily injury caused by an accident that occurs while you are
covered under this program, and results directly and independently of all
other causes of loss. The injury must be verified by a physician.
Rental agreement means the entire agreement or contract that you
receive when renting a vehicle from a vehicle rental agency that describes
in full all of the terms and conditions of the rental, as well as the
responsibility of all parties under the rental agreement.
Stolen means items that are taken by force and/or under duress or the
disappearance of the item from a known place under circumstances that
would indicate the probability of theft.
United States Dollars (USD) means the currency of the United States
of America.
Guide to Benefits

1

Vehicle means a land motor vehicle with four wheels that is designed
for use on public roads and intended for use on a bound surface such as
concrete and tarmac. This includes minivans and sport utility vehicles that
are designed to accommodate less than nine (9) passengers.

MasterRental
Various provisions in this document restrict coverage. Read carefully to
determine all rights and duties and what is and is not covered. Please see the
‘Key Terms’ section for the terms used throughout this benefit.
Evidence of Coverage
This EOC replaces all prior disclosures, program descriptions, advertising,
and brochures by any other party. We reserve the right to change the
benefits and features of these programs at any time. Notice will be
provided for any changes. Pursuant to the below terms and conditions
herein, when you rent a vehicle for fifteen (15) consecutive days or less with
your covered card, you are eligible for benefits hereunder.
A. To get coverage:
• You must initiate and then pay for the entire rental agreement (tax,
gasoline, and airport fees are not considered rental charges) with your
covered card and/or the accumulated points from your covered card at
the time the vehicle is returned. If a rental company promotion/discount
of any kind is initially applied toward payment of the rental vehicle, at
least one (1) full day of rental must be billed to your covered card.
• You must decline the optional collision/damage waiver (or similar
coverage) offered by the rental company.
• You must rent the vehicle in your own name and sign the rental agreement.
• Your rental agreement must be for a rental period of no more than
fifteen (15) consecutive days. Rental periods that exceed or are intended
to exceed fifteen (15) consecutive days are not covered.
B. The kind of coverage you receive:
We will pay for the following on a secondary basis:
• Physical damage and theft of the vehicle, not to exceed the
limits outlined below.
• Reasonable loss of use charges imposed by the vehicle rental company for
the period of time the rental vehicle is out of service. Loss of use charges
must be substantiated by a location and class specific fleet utilization log.
• Towing charges to the nearest collision repair facility.
This coverage is not all-inclusive, which means it does not cover such
things as personal injury, personal liability, or personal property. It does
not cover you for any damages to other vehicles or property. It does not
cover you for any injury to any party.
C. Coordination of Benefits:
When coverage hereunder is provided on a secondary basis and a
covered loss has occurred, the order in which benefits are determined
shall be made as follows:
1. You or an authorized driver’s primary auto insurance;
2. Collision/damage waiver provided to you by the rental agency;
3. Any other collectible insurance;
4. The coverage provided under this EOC.
If you or an authorized driver’s primary auto insurance or other coverage
has made payments for a covered loss, we will cover your deductible and
2

BMO Harris Consumer Credit Cards

any other eligible amounts, described under the kind of coverage you
receive, not covered by the other insurance.
Note: In certain parts of the United States and Canada losses to rental
vehicles that are covered by your personal vehicle liability insurance policy
may not be subject to a deductible, which means that you may not be
eligible to receive any coverage under this program. Contact your insurance
provider for full coverage details pertaining to your personal vehicle
liability insurance policy (or similar coverage).
If you do not have other insurance or your insurance policy does not cover you in
territories or countries outside of the United States, coverage is considered primary
coverage subject to any applicable economic and trade sanctions conditions.
D. Who is covered:
The covered card cardholder and those designated in the rental agreement
as authorized drivers.
E. Excluded Vehicles:
This coverage does not apply to any:
• Vehicles not required to be licensed.
• All full-size vans mounted on truck chassis (including, but not limited
to, Ford EconoVan), cargo vans, campers, off-road vehicles, and other
recreational vehicles.
• Trailers, motorbikes, motorcycles, and any other vehicle having fewer
than four (4) wheels.
• Antique vehicles (vehicles that are more than twenty (20) years old or
have not been manufactured for at least ten (10) years), or limousines.
F. Where you are covered:
Coverage is available worldwide; provided coverage is not available
in countries where:
• This EOC or the group policy is prohibited by that country’s law; or
• The terms of the EOC or the group policy are in conflict with the laws
of that country.
In addition, we shall not be deemed to provide coverage and we shall
not be liable to pay any claim or provide any benefit under the group
policy to the extent that the provision of such coverage, payment of such
claim or provision of such benefit would expose us, our parent company
or its ultimate controlling entity to any sanction, prohibition or restriction
under United Nations resolutions or the trade or economic sanctions, laws
or regulations of the European Union or the United States of America.
Wherever coverage provided by this policy would be in violation of any
economic or trade sanctions, such coverage shall be null and void.
G. Coverage limitations:
We will pay the lesser of the following:
• Reasonable and customary charges of repair or the actual repair amount;
• Wholesale market value less salvage and depreciation;
• The rental agencies purchase invoice less salvage and depreciation;
• The contractual liability assumed by you or an authorized driver of
the rental vehicle; or
• The actual cash value.
In addition, coverage is limited to $500 per incident for the reasonable loss
of use charges imposed by the vehicle rental company for the period of
time the rental vehicle is out of service. We will not pay for or duplicate
the collision/damage waiver coverage offered by the rental agency.

Guide to Benefits

3

H. What is NOT covered:
This coverage does not apply to:
• Any personal item actually or allegedly stolen from the interior
or exterior of rental vehicles.
• Vehicle keys or portable Global Positioning Systems (GPS).
• Vehicles not rented by the cardholder or authorized user on the covered card.
• Any person not designated in the rental agreement as an authorized driver.
• Any obligations you assume other than what is specifically covered under
the rental agreement or your personal vehicle liability insurance policy
or other indemnity policy.
• Any actual or alleged violation of the written terms and conditions of the
rental agreement.
• Any actual or alleged loss that occurs while driving under the influence
of drugs or alcohol.
• Any actual or alleged loss associated with racing or reckless driving.
• Any actual or alleged losses involving the theft of the rental vehicle
when you or an authorized driver cannot produce the keys to the rental
vehicle at the time of reporting the incident to the police and/or rental
agency, as a result of negligence. Loss of keys is considered negligence.
• Mechanical failures caused by wear and tear, gradual deterioration, or
mechanical breakdown.
• Subsequent damages resulting from a failure to protect the rental vehicle
from further damage.
• Blowouts or tire/rim damage unless caused by theft, vandalism or
vehicle collision.
• Rental vehicles where collision/damage waiver coverage (or similar
coverage) was accepted/purchased by you.
• Any damage that is of an intentional or non-accidental nature, caused by
you or an authorized driver of the rental vehicle.
• Depreciation, diminishment of value, administrative, storage, or other fees
charged by the vehicle rental company.
• Vehicles with a rental agreement that exceeds or is intended to exceed a
rental period of fifteen (15) consecutive days from a rental agency.
• Losses resulting from any kind of alleged or actual illegal activity.
• Damage sustained on any road not regularly maintained by a municipal,
state, or federal entity.
• Losses as a result of war or hostilities of any kind (including, but not limited
to, any actual or alleged invasion, terrorism, rebellion, insurrection, riot,
or civil commotion); confiscation or damage by any government, public
authority, or customs official; risks of contraband; illegal activity or acts.
• Any loss involving the rental vehicle being used for hire, for commercial
use, or as a public or livery conveyance.
• Theft of, or damage to, unlocked or unsecured vehicles.
• Value-added tax, or similar tax, unless reimbursement of such tax is
required by law.
• Vehicles rented on a monthly basis.
• Loss arising from any items not installed by the original manufacturer.
• Loss arising from any inherent damage.
• Damage to windshields which is not the result of a collision or
roll-over (damage to a windshield is covered if such damage is
due to road debris or road hazard).
• Vehicle leases or mini-leases.
• Indirect or direct damages resulting from a covered claim.
• Charges for gasoline or airport fees.
4

BMO Harris Consumer Credit Cards

I. How to file a claim:
• Call 1-800-Mastercard or go to www.mycardbenefits.com to initiate
a claim. You must report the claim within sixty (60) days of the loss or
the claim may not be honored.
• You may choose to assign your benefits under this insurance program to
the rental agency from which you rented your vehicle. Please contact us
or our administrator for further details.
• You must submit the following proof of claim documentation within one
hundred and eighty (180) days of the incident or the claim will not be covered:
- Receipt showing the vehicle rental charge.
- Statement showing the vehicle rental charge.
- The rental agreement (front and back).
- Copy of your valid driver’s license (front and back).
- Copy of the declarations page of any personal vehicle liability insurance
policy and/or other valid insurance or coverage.
- Police report when the vehicle is stolen, vandalized (regardless of the
damage), or involved in a collision that requires the vehicle; to be
towed, in a multi-vehicle collision, or the vehicle is not drivable.
- Itemized repair estimate from a factory registered collision repair facility.
- Copy of any vehicle rental company promotion/discount, if applicable.
- Copy of the vehicle rental location class specific fleet utilization log, if
loss of use charges are being claimed. You must secure this log from
the rental agency.
- Any other documentation that may be reasonably requested by us or
our administrator to validate a claim.

Extended Warranty

Evidence of Coverage
Refer to Key Terms for the definitions of you, your, we, us, our, and words
that appear in bold and Legal Disclosures.
A. To get coverage:
• You must purchase the new item entirely with your covered card and/or
accumulated points from your covered card for yourself or to give as a gift.
• The item must have an original manufacturer’s (or U.S. store brand) warranty
of twelve (12) months or less.
B. The kind of coverage you receive:
• Extended Warranty doubles the original manufacturer’s warranty up to
a maximum of twelve (12) months on most items you purchase. For
products with multiple warranty components, each warranty time period
will be extended up to a maximum of twelve (12) months. An example
of a product with multiple warranty components includes an appliance
with original manufacturer’s (or U.S. store brand) warranties that differ
for parts, labor, compressor, etc.
• If you purchase a service contract or an optional extended warranty of
twelve (12) months or less on your item, we will cover up to an additional
twelve (12) months after both the original manufacturer’s (or U.S. store
brand) warranty and the purchased service contract or extended warranty
coverage period end. If your service contract or extended warranty exceeds
twelve (12) months, this coverage does not apply.
• If you do not have an additional service contract or an optional extended
warranty, this Extended Warranty benefi t commences the day after your
original manufacturer’s (or U.S. store brand) warranty expires.
Guide to Benefits

5

C. Coverage limitations:
• The maximum benefit for repair or replacement shall not exceed the actual
amount charged on your covered card or $10,000, whichever is less.
• If either the original manufacturer’s (or U.S. store brand) warranty or
the service contract covers more than twelve (12) months, this benefit
will not apply.
• We or our administrator will decide if a covered failure will be repaired or
replaced, or whether you will be reimbursed up to the amount paid for the
item. Items will be replaced with those of like kind and quality. However,
we cannot guarantee to match exact color, material, brand, size, or model.
D. What is NOT covered:
• Used or antique items; collectibles of any kind (such as items designed
for people to collect or items that over time become collectibles) that
do not come with a manufacturer’s warranty (repair or replacement
amount will not include market value at time of claim); recycled,
previously owned, refurbished, rebuilt, or remanufactured items;
product guarantees (e.g., glass breakage).
• Floor models that do not come with an original manufacturer’s warranty.
• Motorized vehicles, including, but not limited to, automobiles,
watercraft/boats, aircraft, and motorcycles, or their motors, equipment,
or accessories. Parts, if purchased separately, may be covered.
• Land, any buildings (including, but not limited to, homes and dwellings),
permanently installed items, fixtures, or structures.
• Plants, shrubs, animals, pets, consumables, and perishables.
• Professional services (including, but not limited to, the performance or
rendering of labor or maintenance; repair or installation of products, goods
or property; professional advice of any kind, including, but not limited to,
information/services or advice secured from any help or support line; or
technical support for software, hardware, or any other peripherals).
• Application programs, operating software, and other software.
• All types of media with stored data or music (including, but not limited to,
computer software, DVDs, video cassettes, CDs, film and audio cassettes).
• Any shipping charges, transportation and delivery charges, or promised
time frames for delivery, whether or not stated or covered by the
manufacturer’s warranty.
• Direct or indirect loss resulting from any Acts of God (including, but not
limited to, flood, hurricane, lightning, and earthquake).
• Indirect or direct damages resulting from a covered loss.
• Mechanical failure arising from product recalls.
• Trip, service, or diagnostic charges in the absence of any covered repairs
or verified failure.
• Loss resulting from war or hostilities of any kind (including, but not
limited to, invasion, terrorism, rebellion, insurrection, riot, or civil
commotion); confiscation or damage by any government, public
authority, or customs official; risks of contraband, illegal activity, or acts.
• Mechanical failures caused by normal wear and tear or gradual
deterioration where no failure has occurred.
• Items purchased for resale, professional, or commercial use.
• Mechanical failures caused by lack of maintenance/service.
• Losses caused by power surge, contamination by radioactive or
hazardous substances, including mold.
• Physical damage to the item.
• Any exclusion listed in the original manufacturer’s warranty.
6

BMO Harris Consumer Credit Cards

E. How to file a claim:
• Visit www.mycardbenefits.com or call 1-800-Mastercard to open
a claim. You must report the claim within sixty (60) days of the failure
or the claim may not be honored.
• Submit the following documentation within one hundred and eighty
(180) days from the date of failure or the claim may not be honored:
- Receipt showing covered item(s).
- Statement showing covered item(s).
- Itemized purchase receipt(s).
- Original manufacturer’s (or U.S. store brand) warranty.
- Service contract or optional extended warranty, if applicable.
- Itemized repair estimate from a factory authorized service provider.
- Any other documentation that may be reasonably requested by us or
our administrator to validate a claim.

Mastercard ID Theft Protection™
Program Description:
Mastercard ID Theft Protection (IDT) provides you with access to a number
of identity theft resolution services, should you believe you are a victim of
identity theft. This product offering will alert you about possible identity
theft by monitoring the surface, dark and deep web, searching for
compromised credentials and potentially damaging use of your registered
personal information in order to detect fraud at its inception.
Eligibility:
All Mastercard consumer credit cardholders in the US are eligible for
this coverage.
Access:
Simply contact 1-800-Mastercard if you believe you have been a victim of
identity theft.
Services provided:
Services provided are on a 24-hour basis, 365 days a year. In order
to receive the following services, you must enroll at
https://mastercardus.idprotectiononline.com/. The services include:
• Online Monitoring Dashboard (requires activation): The online
monitoring dashboard is the primary user interface for cardholders. It
serves as a repository of all the personally identifiable information (PII)
data the cardholder wants to monitor, tracks and displays cardholders’
risk score, and provides access to identity protection tips. It is also the
platform for cardholders to respond to identity monitoring alerts.
• Monthly Risk Alert/Newsletter: Cardholders will receive a monthly
newsletter with information on the cardholder’s risk score, and articles
pertaining to good identity protection practices.
• Identity Monitoring: IDT searches the internet to detect compromised
credentials and potentially damaging use of your personal information,
and alerts you via email so that you can take immediate action. This
platform utilizes automated monitoring and human threat intelligence
from cyber operations agents monitoring threat actors and their tactics
on the dark and deep web where personal data is bought and sold.
Data elements that can be monitored are:
- Email addresses
- Debit/credit cards/prepaid cards

Guide to Benefits

7

- Bank accounts
- Web logins; username and password
- Medical insurance cards
- Drivers’ license
- Loyalty cards
- Affinity cards
- Passport number
- Vehicle insurance cards
- Social Security number
	To take advantage of this service, the cardholder must enter the personal
information they wish to monitor on the dashboard.
• Resolution Services: You will have access to a team of identity theft
resolution specialists, available 24 hours a day, 365 days a year to help
resolve your identity theft incident and prevent further damage. The
resolution specialists are native speakers of English, French and Spanish,
and are based out of Bethesda, Maryland. Cardholders are given the
option to sign limited power of attorney (LPOA) to the specialist, to allow
them to conduct resolution activities on the cardholders’ behalf, including
contacting police, credit agencies, and other authorities, translating
information, and closing and replacing breached accounts.
• Lost Wallet Assistance: Cardholders will be provided assistance with
notifying the appropriate issuing authorities to cancel and replace stolen
or missing items, such as their debit/credit cards, driver’s license, Social
Security card, and passport.
• Single Bureau Credit Monitoring: Cardholders’ TransUnion credit file will
be monitored for changes that could indicate fraud such as new credit
inquiries, an address change or new credit account(s) opened in their
name. An alert notification via email will be sent anytime a hard inquiry
is made on the cardholders’ TransUnion credit file so they can take
immediate action to minimize damage.
To take advantage of this service, the cardholder must enter their Social
Security number on the dashboard and pass credit authentication.
• Financial Account Takeover: IDT monitors cardholder’s high-risk transactions
with more than 300 of the nation’s largest companies to uncover and
thwart account takeover attempts. Monitored transactions include:
- Debit/credit cards/prepaid cards
- Bank accounts
- Brokerage accounts
- Healthcare portals
- Workplace intranets
- Other services (e.g., peer-to-peer fund transfers)
	To take advantage of this service, the cardholder must enter the accounts
they wish to protect on the dashboard.
• URL and Domain Monitoring: URL and domain monitoring allows cardholder
to enter up to 10 domain or URL names related to cardholder’s business. This
service will monitor the domain and URL names for any compromised email
addresses associated with the domain or URL names and if compromised
email addresses are found in a data breach, this service will alert the
registered cardholder via email and provide information regarding the
specific email address that was breached along with information about the
date found and source (provided that this information is available).
For more information regarding the services stated above and additional
information, please visit https://mastercardus.idprotectiononline.com/.

8

BMO Harris Consumer Credit Cards

Charges:
There is no charge for these services, they are provided by your
financial institution.
Services not provided:
• When it is determined you have committed any dishonest, criminal,
malicious or fraudulent act.
• When your financial institution or card issuer which provides this
service, has investigated the event and deemed you are responsible
for the charge or event.
• When any theft or unauthorized use of an account by a person to whom
the account has been entrusted has been committed.
Program Provisions for Mastercard ID Theft Protection:
This service applies only to you, the named Mastercard cardholder. You shall
use due diligence and do all things reasonable to avoid or diminish any loss
or damage to property protected by the program. The provider, Generali
Global Assistance, relies on the truth of statement made in the affidavit or
declaration from each cardholder. This service is provided to eligible Mastercard
cardholders at no additional cost and is in effect for acts occurring while the
program is in effect. The terms and conditions contained in this program Guide
may be modified by subsequent endorsements. Modifications to the terms
and conditions may be provided via additional Guide mailings, statement
inserts, or statement messages. Mastercard or your financial institution can
cancel or non-renew these services, and if we do, we will notify you at
least thirty (30) days in advance. If the provider non-renews or cancels any
services provided to eligible Mastercard cardholders, you will be notified
within 30–120 days before the expiration of the service agreement. In the
event substantially similar coverage takes effect without interruption, no
such notice is necessary. For general questions regarding these services,
please contact 1-800-Mastercard.

Travel Assistance Services
Rely on Travel Assistance Services when you’re away from home.
Travel Assistance Services is your guide to many important services you
may need when traveling. Benefits are designed to assist you or your travel
companions when you’re traveling 50 miles or more from home.* This is
reassuring, especially when visiting a place for the first time or not speaking
the language. For services, call 1-800-Mastercard. Enrollment is automatic
and the assistance service is free to cardholders. Please keep in mind that
you will be responsible for the fees incurred for professional or emergency
services requested of Travel Assistance Services (e.g., medical or legal bills).
* Travel Assistance Services are available worldwide, with the exception of
those countries and territories which may be involved in an international
or internal conflict, or in those countries and territories where the
existing infrastructure is deemed inadequate to guarantee service. You
may contact us prior to embarking on a covered trip to confirm whether
or not services are available at your destination(s).
MasterTrip® Travel Assistance:
Before you begin your trip, MasterTrip provides information on travel
requirements including documentation (e.g., visas, passports), immunizations or
currency exchange rates. The exchange rate provided may differ from the exact
rate that issuers use for transactions on your card. Information on exchange
rates for items billed on your statement should be obtained from the financial
Guide to Benefits

9

institution that issued your card. MasterTrip will also help you locate any lost
or stolen travel materials, including luggage. This is not an insurance policy for
lost/stolen luggage and we do not reimburse you for a permanent loss.
If you have a travel emergency and need cash, MasterTrip can arrange to
transfer up to $5,000 from a family member, friend, or business account.
This service does not provide maps or information regarding road conditions.
Travel Services Medical Assistance:
Provides a global referral network of general physicians, dentists, hospitals
and pharmacies. We can also help you refill prescriptions with local
pharmacists (subject to local laws).
In the event of emergencies, a stateside physician or nurse can be contacted
for consultation with the local medical staff and to monitor your condition.
If you are hospitalized, we can arrange to have messages relayed home,
transfer you to another facility if medically necessary, or have a family
member or close friend brought to your bedside if you have been traveling
alone (at cardholder’s expense). If a tragedy occurs, we’ll assist in securing
travel arrangements for you and your travel companion(s).
MasterLegal® Referral Service:
This service will provide you with English-speaking legal referrals or consults
with appropriate embassies and consulates regarding your situation.
This service will assist in transfers up to $5,000 in cash from a family member,
friend or business to cover legal fees or to post bail. There is no charge for
referral services; however, legal and bail fees are your responsibility.
Master RoadAssist® Roadside Service:
(Available only when traveling in the 50 United States and the District
of Columbia)
If your car breaks down on the road, just call 1-800-Mastercard and tell us
where you are.
We’ll send someone to the rescue. This is not only reassuring, but it may also
save you money because fees for many services (e.g., jumpstarts, towing,
gas delivery, and tire changes) are pre-negotiated. Road service fees will be
automatically billed to your Mastercard account.
You are responsible for emergency road service charges incurred by towing
facilities responding to your dispatch, even if you are not with your vehicle
(or it’s gone) when the tow truck arrives. Mastercard International is not
responsible or liable for the service the towing facility provides. Towing
facilities are independent contractors, solely liable for their services.
Emergency road service is not available in areas not regularly traveled, in
“off road” areas not accessible by ordinary towing vehicles, or for over oneton capacity trailers, campers or if you have a rental car, be sure to call the
rental car agency before you call 1-800-Mastercard, as many rental agencies
have special procedures regarding emergency road service assistance.

Mastercard Global ServiceTM
Mastercard Global Service provides worldwide, 24-hour assistance
with lost and stolen card reporting, emergency card replacement,
and emergency cash advance.
Call Mastercard Global Service immediately to report your card lost or
stolen and to cancel the account. If you need to make purchases or
arrange for a cash advance, with your issuer’s approval, you can receive
a temporary card the next day in the United States, and within two
business days almost everywhere else.
10

BMO Harris Consumer Credit Cards

Remember, if you report your card lost or stolen, you will not be
responsible for any unauthorized transactions on your account.
In the United States (including all 50 states, the District of Columbia, the
U.S. Virgin Islands, and Puerto Rico) and Canada, call 1-800-307-7309.
When out-of-country and in need of assistance, you can easily reach a
specially trained Mastercard Global Service Representative who can help
you 24 hours a day, 365 days a year, in any language. You can call toll-free
from over 80 countries worldwide. Some of the key toll-free Mastercard
Global Service telephone numbers are:
Australia

1-800-120-113

Mexico

001-800-307-7309

Austria

0800-070-6138

Netherlands

0800-022-5821

France

0-800-90-1387

Poland

0-0800-111-1211

Germany

0800-071-3542

Portugal

800-8-11-272

Hungary

06800-12517

Spain

900-822-756

Ireland

1-800-55-7378

United Kingdom

0800-96-4767

Italy

800-870-866

Virgin Islands

1-800-307-7309

For additional information, or for country-specific, toll-free telephone
numbers not listed above, visit our website at www.mastercard.com
or call the United States collect at 1-636-722-7111.
Account Information and Card Benefits:
When in the United States, contact your card issuer directly for account
information and 1-800-Mastercard for card benefits. When traveling outside
the U.S., call Mastercard Global Service to access your card issuer for account
information or to access any of your card benefits.
ATM Locations:
Call 1-877-FINDATM (1-877-346-3286) to find the location of a nearby ATM
in the Mastercard ATM Network accepting Mastercard®, Maestro®, and Cirrus®
brands. Also, visit our website at www.mastercard.com to use our ATM locator.
You can get cash at over two million ATMs worldwide. To enable cash access,
be sure you know your Personal Identification Number (PIN) before you travel.

Mastercard Airport Concierge™
Your passport to the finer side of air travel.
Enjoy a 15% savings on Airport Meet and Greet services. Arrange for a
personal, dedicated Meet and Greet agent to escort you through the airport
on departure, arrival or any connecting flights at over 700 destinations
worldwide 24 hours a day, 7 days a week, 365 days a year. There are also
certain airports where you can be expedited through the security and/or the
immigration process. To reserve Mastercard Airport Concierge services visit
www.mastercard.com/airportconcierge or consult your travel advisor.

Account and Billing Information
Important: Contact your card-issuing financial institution directly for
questions concerning your account, such as account balance, credit line,
billing inquiries (including transaction exchange rates), merchant disputes,
or information about additional services not described in this Guide. Your
financial institution’s phone number should be available on your monthly
billing statement or on the back of your card.
Reminder: Please refer to the Legal Disclosure section.
Guide to Benefits

11

Legal Disclosure
This Guide to B0enefits is not, by itself, a policy or contract of insurance
or other contract. Benefits are provided to you, the accountholder, at no
additional charge. Non-insurance services may have associated costs, which
will be your responsibility (for example, legal referrals are free, but the
lawyer’s fee is your responsibility).
The insurance benefits are provided under a group policy issued by New
Hampshire Insurance Company, an AIG company. This Guide to Benefits is a
summary of benefits provided to you. The Key Terms and EOC is governed
by the group policy.
Effective date of benefits: Effective October 1, 2019, this Guide to Benefits replaces
all prior disclosures, program descriptions, advertising, and brochures by any party.
The Policyholder and the insurer reserve the right to change the benefits and
features of these programs at any time. Notice will be provided for any changes.
Cancellation: The Policyholder can cancel these benefits at any time or choose
not to renew the insurance coverage for all cardholders. If the Policyholder does
cancel these benefits, you will be notified in advance. If the insurance company
terminates, cancels, or chooses not to renew the coverage to the Policyholder,
you will be notified as soon as is practicable. Insurance benefits will still apply
for any benefits you were eligible for prior to the date of such terminations,
cancellation, or non-renewal, subject to the terms and conditions of coverage.
Benefits to you: These benefits apply only to the cardholder whose cards
are issued by U.S. financial institutions. The United States is defined as the
fifty (50) United States, the District of Columbia, American Samoa, Puerto
Rico, Guam, and the U.S. Virgin Islands. No person or entity other than the
cardholder shall have any legal or equitable right, remedy, or claim for
benefits, insurance proceeds and damages under or arising out of these
programs. These benefits do not apply if your cardholder privileges have
been cancelled. However, insurance benefits will still apply for any benefit
you were eligible for prior to the date that your account is suspended or
cancelled, subject to the terms and conditions of coverage herein.
Transfer of rights or benefits: No rights or benefits provided under these
insurance benefits may be assigned without the prior written consent of the
claim administrator for these benefits.
Misrepresentation and Fraud: Any coverage benefits hereunder shall be
void if the cardholder has concealed or misrepresented any material facts
concerning this coverage.
Dispute Resolution – Arbitration: This EOC requires binding arbitration if there
is an unresolved dispute concerning this EOC (including the cost of, lack of
or actual repair or replacement arising from a loss or breakdown). Under this
Arbitration provision, You give up your right to resolve any dispute arising
from this EOC by a judge and/or a jury. You also agree not to participate
as a class representative or class member in any class action litigation, any
class arbitration or any consolidation of individual arbitrations. In arbitration, a
group of three (3) arbitrators (each of whom is an independent, neutral third
party) will give a decision after hearing the parties’ positions. The decision
of a majority of the arbitrators will determine the outcome of the arbitration
and the decision of the arbitrators shall be final and binding and cannot be
reviewed or changed by, or appealed to, a court of law.
To start arbitration, the disputing party must make a written demand to the
other party for arbitration. This demand must be made within one (1) year
of the earlier of the date the loss occurred or the dispute arose. The parties
will each separately select an arbitrator. The two (2) arbitrators will select a
third arbitrator called an “umpire.” Each party will each pay the expense of
the arbitrator selected by that party. The expense of the umpire will be shared
equally by the parties. Unless otherwise agreed to by the parties, the arbitration
12

BMO Harris Consumer Credit Cards

will take place in the county and state in which you live. The arbitration shall be
governed by the Federal Arbitration Act (9 U.S.C.A. § 1 et. seq.) and not by any
state law concerning arbitration. The rules of the American Arbitration Association
(www.adr.org) will apply to any arbitration under this EOC. The laws of the state
of New York (without giving effect to its conflict of law principles) govern all
matters arising out of or relating to this EOC and all transactions contemplated
by this EOC, including, without limitation, the validity, interpretation, construction,
performance and enforcement of this EOC.
Due Diligence: All parties are expected to exercise due diligence to
avoid or diminish any theft, loss or damage to the property insured under these
programs. Due Diligence shall means the performance of all vigilant activity,
attentiveness, and care that would be taken by a reasonable and prudent person in
the same or similar circumstances in order to guard and protect the item.
Subrogation: If payment is made under these benefits, we are entitled to
recover such amounts from other parties or persons. Any party or cardholder
who receives payment under these benefits must transfer to us his or her
rights to recovery against any other party or person and must do everything
necessary to secure these rights and must do nothing that would jeopardize
them, or these rights will be recovered from the cardholder.
Salvage: If an item is not repairable, our administrator may request that you
and/or the cardholder send the item to our administrator for salvage at your
and/or cardholder’s expense. Failure to remit the requested item for salvage to
our administrator may result in denial of the claim.
Other Insurance: Coverage is secondary to and in excess of any other
applicable insurance or indemnity available to you. Coverage is limited to only
those amounts not covered by any other insurance or indemnity. Coverage
is subject to the conditions, limitations, and exclusions described in this
document. In no event will this coverage apply as contributing insurance. This
Other Insurance clause will take precedence over a similar clause found in
other insurance or indemnity language.
In no event will these insurance benefits apply as contributing insurance.
The non-contribution insurance clause will take precedence over the noncontribution clause found in any other insurance policies.
Severability of Provisions: If in the future any one or more of the provisions of
this Guide to Benefits is, to any extent and for any reason, held to be invalid
or unenforceable, then such provision(s) shall be deemed severable from the
remaining provisions of the Guide. In that event, all other provisions of this Guide
shall remain valid and enforceable. Benefits listed in this Change to Guide to
Benefits are subject to the conditions, limitations, and exclusions described in each
benefit section. Receipt and/or possession of this Change to Guide to Benefits
does not guarantee coverage or coverage availability.
This Guide is intended as a summary of services, benefits, and coverages and, in
case of a conflict between the Guide and any master insurance policy(ies) or group
policy or actual offering shall control. Provision of services is subject to availability
and applicable legal restrictions. The Guide to Benefits contains the entire
agreement between you and us. Representations or promises made by anyone
that are not contained in the Guide to Benefits are not a part of your coverage.

To file a claim, call 1-800-Mastercard: 1-800-627-8372,
or en Español: 1-800-633-4466.
Visit our Web site at www.mastercard.com.
©2019 Mastercard
Guide to Benefits

13

© 2019 BMO Harris Bank N.A. (10/19)			

10062198

BMO Harris Consumer Credit Cards

19-1470

F03-W644-6 -1019

1

Mastercard, Maestro, and Cirrus are registered trademarks and the circles design
are trademarks of Mastercard International Incorporated.
Banking products and services are subject to bank and credit approval and are
provided by BMO Harris Bank N.A. Member FDIC

